Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Medicare Payments for the Same Service
     by More Than One Carrier




                       MARCH 2001
                      OEI-03-00-00090
                        OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                          Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Philadelphia Regional Office prepared this report under the direction of Robert A. Vito,
Regional Inspector General, and Linda M. Ragone, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                               HEADQUARTERS

Robert Katz, Project Leader                          Tricia Davis, Program Specialist
Erika Q. Lang, Program Analyst



 To obtain copies of this report, please call the Philadelphia Regional Office at (800) 531-9562.
         Reports are also available on the World Wide Web at our home page address:

                                http://www.dhhs.gov/progorg/oei
                       EXECUTIVE SUMMARY

PURPOSE

       To determine if multiple carriers paid for duplicate Part B services rendered by the same
       provider.


BACKGROUND

       The Health Care Financing Administration (HCFA) contracts with private health insurance
       companies called carriers to process Part B claims for reimbursement. After furnishing a
       physician service, providers submit a claim for reimbursement to the carrier with
       jurisdiction over this service. Under the Common Working File system, the carrier then
       sends the claims information to one of nine host sites for approval. At the host site, the
       claim is screened for consistency, entitlement, and duplication of previously processed
       claims.

       Potentially duplicate claims are ones which contain identical elements for a service. Both
       the carriers and the Common Working File host sites are required to review incoming
       claims for possible duplication using certain criteria, and to deny ones that are potentially
       duplicate.

       For this inspection, we selected a sample of potential duplicate services from HCFA’s 5
       percent National Claims History file for 1998. We contacted carriers who had paid for the
       services in our sample, and asked them to identify the providers who had billed for these
       services. We then asked providers to furnish us with medical documentation to support
       the sample services. Sample services represented 15 different procedure codes. We also
       examined data from HCFA’s 100 percent claims file for the providers who rendered
       services in our sample.


FINDINGS

Medicare’s claims processing system did not prevent any of the duplicate
payments in our sample

       None of the medical records received from providers in our sample justified billings to
       multiple carriers. Although carriers and Common Working File host sites have checks
       designed to detect duplicate billings, these measures are clearly vulnerable to duplicate
       claims that are sent to different carriers.


   Medicare Payments for the Same Service         i                                    OEI-03-00-00090
Some sample providers had a significant number of potential duplicate billings

        In reviewing 100 percent of the providers’ billings for the 15 procedure codes reviewed,
        we found that nearly one-fourth of the providers in our sample (20 of 86) had at least 20
        services involving potential duplicate billings. Seven providers had more than 100 services
        involving potential duplicate billings in 1998. Further, the duplicate billings were not
        limited to the 15 codes. We found other duplicate billings representing additional services,
        including evaluation and management services, group psychotherapy, and magnetic
        resonance imaging.


RECOMMENDATIONS

We believe our findings highlight a significant vulnerability in Medicare’s claims processing
system. The inability to detect duplicate payments by multiple carriers could lead to substantial
future losses for Medicare.

To address the vulnerabilities identified in this report, we recommend that HCFA:

        Revise Common Working File edits to detect and deny duplicate billings to more
        than one carrier. If this measure is determined not to be cost effective, then
        increased post-payment reviews should be conducted, particularly in areas where
        providers commonly perform services in multiple carrier jurisdictions.

        Promote provider compliance and cooperation with the Office of Inspector
        General’s Compliance Program Guidance for Individual and Small Group Physician
        Practices. Providers in solo or small group physician offices should be encouraged to
        conduct effective voluntary compliance activities to maintain optimum levels of integrity in
        their practices.

        Encourage providers to clarify carrier jurisdiction questions, in addition to other
        billing questions, by using toll-free telephone lines recently established by carriers.

We have forwarded claims information to HCFA so they may take appropriate action regarding
the duplicate payments cited in this report. In addition, we have referred some of the providers
that we identified as having high numbers of duplicate billings to our Office of Investigations.


AGENCY COMMENTS

        The HCFA concurred with our recommendations. The HCFA stated that they will
        reexamine existing criteria regarding duplicate editing in the Common Working File
        system to determine the cost effectiveness of including the carrier number in the match

    Medicare Payments for the Same Service       ii                                   OEI-03-00-00090
    criteria. If a revision is determined not to be cost effective, improved duplicate billing
    edits will be considered within the Common Working File redesign initiative. The HCFA
    also plans to prepare a model article for inclusion in all Medicare contractor carrier
    bulletins, reminding providers to conduct effective voluntary compliance activities to
    ensure high levels of integrity in their practices. To encourage providers to clarify carrier
    jurisdiction questions via the carrier toll-free telephone lines, HCFA will instruct carriers
    to alert personnel servicing the toll-free lines to be sensitive to this issue and to provide
    appropriate information to providers.




Medicare Payments for the Same Service        iii                                   OEI-03-00-00090
                             TABLE OF CONTENTS

                                                                                                                                PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6


          Claims processing system did not prevent duplicate payments . . . . . . . . . . . . . . . . . . . . . 6


          Some providers had significant numbers of potential duplicate billings . . . . . . . . . . . . . . 7


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9


APPENDICES


          A: Procedure Codes Included in Sample . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10


          B: Estimate and Confidence Interval . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


          C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12





     Medicare Payments for the Same Service                        iv                                                  OEI-03-00-00090
                                   INTRODUCTION

PURPOSE

        To determine if multiple carriers paid for duplicate Part B services rendered by the same
        provider. 1


BACKGROUND

        The Health Care Financing Administration (HCFA), which administers the Medicare
        program, contracts with private health insurance companies called carriers to process
        Part B claims for payment. Claims under Medicare Part B include medical and surgical
        services by physicians, ambulance services, durable medical equipment, outpatient
        hospital services, and laboratory services.

Carrier Jurisdiction

        After physician services are furnished to a Medicare beneficiary, the provider submits a
        claim for reimbursement to the carrier with jurisdiction over the service. In accordance
        with the Omnibus Reconciliation Act of 1989, as amended by the Omnibus Reconciliation
        Act of 1990, carrier jurisdiction for physician services was revised to reflect the locality
        where the service was furnished. Previously, carrier jurisdiction was based on the
        location of the physician’s office. The rule governing carrier jurisdiction has been in
        effect since January 1, 1992; however, carriers were allowed to delay its implementation
        until July 1, 1998.

Processing Part B Claims

        A carrier receives claims via electronic submission or mail. The carrier enters the claim
        into its processing system, calculates the payment amount, and conducts consistency and
        utilization checks using computerized edits. The carrier then sends the claim to one of
        nine host sites of the Common Working File (CWF) system. The HCFA established the
        Common Working File system in 1991 to improve the accuracy of claims processing.
        The host sites maintain beneficiary claims history and entitlement information. Each
        beneficiary is assigned to only one host site. At the host site, the claim is screened for
        consistency, entitlement, and duplication of previously processed claims. This screening
        process is Medicare’s front line of defense against paying inappropriate claims. Within


        1
         The term “provider,” as used in this report, refers to any practitioner who provides a Part B service to a
Medicare beneficiary.

    Medicare Payments for the Same Service               1                                           OEI-03-00-00090
       24 hours of receiving a claim, the host site makes one of three payment determinations:
       (1) pay the claim, (2) reject the claim, or (3) hold the claim to obtain missing information.

Detecting Duplicate Payments

       As part of Medicare’s guidelines to detect and prevent inappropriate payments, both the
       Common Working File system and the carriers are required to conduct checks on claims
       to detect duplicate payments. The Common Working File host sites check for exact
       duplicate claims by comparing the carrier number, the claim’s document control number,
       and service dates on the File’s history record. If these fields are identical on two claims,
       one claim is denied. According to procedures described in the Medicare Carriers Manual
       regarding the control of potentially duplicate payments, as well as information obtained
       from HCFA, carriers are required to deny claims that match on certain fields
       (beneficiary’s health insurance claim number, identical service dates, provider number,
       type of service, procedure code, place of service, and submitted charge). As a further
       check for duplicate services, service dates are matched with one or more of the following
       variables: provider number, type of service, and procedure code. If these items match,
       the claim is held for review and duplicate payments are denied. Line items within claims
       are also compared for duplicate entries.


METHODOLOGY

       To determine if multiple carriers appropriately paid for what appeared to be duplicate
       services, we obtained and reviewed medical documentation from a sample of providers to
       see if it justified the services.

Sampling

       We examined 1998 Part B paid services for a 5 percent sample of Medicare beneficiaries
       in the National Claims History file. This 5 percent file, which contained adjustments
       through June 1999, was 98 percent complete. We used six criteria to determine if two
       services appeared to be duplicate: the beneficiary’s health insurance claim number; the
       Unique Physician Identification Number of the provider performing the service; the start
       date of service; HCFA’s Common Procedure Coding System code describing the service;
       and the two modifiers that can further describe the service. If the six criteria for two
       services were identical, we considered those services to be potential duplicates. From
       this pool of potentially duplicate services, we selected those that had been billed to more
       than one carrier. As a result of this effort, we identified a universe of 5,876 services.




   Medicare Payments for the Same Service        2                                     OEI-03-00-00090
       From the 5,876 services, we identified 40 procedure codes with the highest allowed
       payment amounts in 1998. With the assistance of a carrier’s medical staff, we arrayed the
       codes into three categories: (1) services that should only be billed once per day by a
       single provider, (2) services that should rarely be billed more than once per day, and (3)
       services which could commonly be billed more than once per day. We narrowed our
       sample of procedure codes to include 15 from the first two categories. In our selection,
       we attempted to include a wide variety of service codes representing diverse provider
       specialties in various places of service. We then selected a random sample of services
       from each of the 15 codes.

       We divided the 15 codes into three tiers based on number of potential duplicate services.
       The first tier had 14 or fewer duplicate services. The second tier had 16-34, and the third
       tier had more than 34 services. For more information, see Appendix A. From each
       procedure code in the first tier, we chose a maximum of eight services. From each code
       in the second and third tiers, we selected a maximum of 14 and 30 services respectively.
       At this stage of sample selection, we had a total of 250 services conducted by 89
       providers. We subsequently eliminated services from three providers who were either
       under investigation by the Inspector General’s Office of Investigations (six services), or
       whose Unique Physician Identification Number was not accurately reflected on the
       National Claims History file (two services). Our resulting sample included 242 total
       services by 86 different providers. Pending receipt of documentation from providers, we
       presumed these 242 services actually represented 121 legitimate services which had been
       appropriately billed to the correct carrier, and 121 duplicate services which somehow had
       been billed to, and paid by, an additional carrier.

Data Collection

       Carrier requests. We contacted each carrier that had paid for a service in our sample.
       We requested that carriers identify the names and addresses, including both the location
       and billing address, of the providers who submitted claims for our sample services. As
       each duplicate service in our sample was billed to multiple carriers, we typically requested
       each provider’s name and address information from two carriers. In response, we often
       received two different addresses for each provider. In addition, we asked carriers to
       confirm the Unique Physician Identification Number of the providers identified in the
       National Claims History file as having rendered the services. We also asked the carriers
       for copies of the claims that contained our sample services.

       Provider requests. We contacted providers using two methods: by mail or through an
       on-site visit.

       Our primary method of contacting providers was via letters, asking them to furnish us
       with medical documentation to support the services in our sample. We sent a form with
       each letter which detailed key elements of each service, including the name of the carrier
       that was billed.

   Medicare Payments for the Same Service       3                                     OEI-03-00-00090
       As mentioned above, we often had two addresses for each provider, one from each
       carrier. If the two carriers gave us the same address, we sent two forms, each
       representing one service, to that address. If the two carriers provided us with different
       addresses, we sent a separate form to each address. Primarily, we mailed the letters to
       the location addresses provided by the carriers. In the absence of a location address, we
       used billing addresses. We sent 121 letters to 82 providers, and visited 4 providers to
       obtain the medical documentation in person.

       If a provider returned two forms along with medical documentation, we considered the
       response complete. However, if the provider returned only one form for one carrier
       along with documentation, we contacted the provider to determine if a different set of
       records was available for the service billed to the other carrier. We telephoned providers
       if they failed to respond by the due dates contained in the letters.

       Several providers did not submit documentation even after repeated follow-up telephone
       calls. In these instances, we sent the provider a letter stating we would conclude the
       provider did not have the documentation if we didn’t receive it by a certain date. We did
       not hear back from five providers. Therefore, we counted them as not having
       documentation.

       When making follow-up contacts for medical documentation, we were careful to point
       out that two carriers had paid for the billed services, and that the provider should send us
       documentation to support each service billed. We also asked providers or their office
       personnel to explain why duplicate billings had been submitted to more than one carrier.

       Of the 86 providers in our sample, 79 sent medical documentation, representing 222
       services. Five providers, representing 12 services, did not send any medical
       documentation. Two providers, representing 8 services, could not be located.
       Consequently, there were 234 services for which we received or attempted to obtain
       documentation.

       Additional data provided by HCFA. As stated above, our sample of 242 total services
       involving 86 providers was pulled from a 5 percent sample of Medicare beneficiaries in
       the National Claims History file. In order to learn more about their billing practices, we
       asked HCFA to provide us with data for our sample providers from the 100 percent
       claims file. This file contains claims information for all Medicare beneficiaries.
       Furthermore, this file was more current than the 5 percent claims file, as it included any
       adjustments in services made through June 2000.

Data Analysis

       Medical documentation from providers. We reviewed medical documentation from
       providers to determine if the services should have been billed to two carriers. We did not
       review the documentation to determine medical necessity. We determined that the


   Medicare Payments for the Same Service       4                                      OEI-03-00-00090
    potential duplicate billing would be justified if there were medical documentation to
    support each service billed. For example, in the case of an inpatient hospital visit, the
    medical documentation sent to us should have verified, at a minimum, medical care by the
    same provider for the same patient on the same day in two hospitals located in different
    carrier jurisdictions. If documentation supported one service only, we determined that
    one of the claims was a duplicate, and should not have been paid.

    We computed overpayment amounts for the services in our sample. If documentation
    was submitted to support only one billing, we attributed the correct payment to the
    carrier where the service was rendered. If we were unable to ascertain which carrier had
    jurisdiction for the service performed based on the medical records sent to us, we
    attributed the correct payment to the carrier with the higher allowed amount (thereby,
    resulting in a lower and more conservative improper payment amount). If the allowed
    amounts were the same, we attributed payment to the carrier listed first in our database.

    Provider billing histories. We examined the 100 percent National Claims History file
    for Part B paid services for all beneficiaries seen by the providers in our sample. We
    identified all Part B services billed by our sample providers in 1998. Using six criteria
    (described on page 2), we identified the total number of potential duplicate services billed
    by sample providers. We analyzed duplicate billings for the 15 procedure codes in our
    sample, as well as all other procedure codes. We also calculated the allowed amounts for
    these services.

    As the 100 percent National Claims History file contained more current data than the 5
    percent file, we analyzed it to determine if any adjustments to our sample services had
    been made. We found that 16 services in our sample were eliminated from the more
    current data in the 100 percent claims file. The dropped services may signify that the
    carrier, provider, or other party discovered the duplicate billing and the provider refunded
    the overpayment to Medicare. These services, representing seven providers, were
    retained in our sample since we obtained the 100 percent claims file after collecting
    medical documentation from providers.
                                         __________

    This study was conducted in accordance with the Quality Standards for Inspections
    issued by the President’s Council on Integrity and Efficiency.




Medicare Payments for the Same Service       5                                     OEI-03-00-00090
                                            FINDINGS

Medicare’s claims processing system did not prevent any of
the duplicate payments in our sample
       None of the medical records received from providers in our sample justified billings to
       multiple carriers. For 222 services, provider documentation did not support the need for
       billing two separate carriers. Therefore, half of these services (111) were improperly
       submitted to and paid by a Medicare carrier. There were an additional 12 services for
       which no documentation was provided. Medicare allowances for the 123 improper
       services totaled almost $12,000. We estimate total improper allowances for the 15 codes
       as approximately $446,000. See Appendix B for estimate and confidence interval.

       Although carriers and Common Working File host sites have checks designed to detect
       duplicate billings, these measures are clearly vulnerable to duplicate claims sent to
       different carriers. Carrier edits are designed to detect duplicates within a carrier, rather
       than across carriers. Carriers, therefore, cannot compare their incoming claims with
       those received by neighboring carriers. The only time that duplicate claims submitted to
       multiple carriers could be identified is when the data is sent to the host sites for
       processing. For the services in our sample, however, it appears that the Common
       Working File system did not identify duplicate services billed to more than one carrier.

Few providers reported making refunds to Medicare

       Only eight providers stated that they had refunded overpayments to the appropriate
       carrier. Seven of these providers initiated the refunds as a result of our inquiries. These
       refunds totaled approximately $1,100 and included not only the services in our sample,
       but other duplicate payments which the provider discovered following our inquiries. An
       additional four providers, who acknowledged their errors, asked for instructions on how
       they should refund their excessive payments to the appropriate carrier.

Providers gave various reasons to explain duplicate billings

       Fifteen providers told us that, prior to our requests, they were totally ignorant of the
       existence of the duplicate billings and had no idea how they had occurred. Another seven
       providers cited the policy change, which based carrier jurisdiction on where the service
       was performed rather than the location of the provider’s office, as the reason for their
       duplicate billings. Although this policy was effective in 1992, carriers were allowed to
       delay implementation until July 1998. One New York City provider explained in a letter,
       “I learned from a billing seminar . . . that claims for patient services received in Queens . .
       . are processed by GHI [Group Health Incorporated]. After


   Medicare Payments for the Same Service        6                                       OEI-03-00-00090
      learning this, I reapplied for reimbursement to GHI . . . and assumed that I would not be
      paid by Empire. However . . . both Empire and GHI sent reimbursements to my
      office.” Other explanations cited by providers included confusion caused by carrier
      transitions, having offices or performing services across State lines, and inadvertent
      errors by billing services.


Some sample providers had a significant number of
potential duplicate billings
      In reviewing 100 percent of the providers’ billings for the 15 procedure codes, we found
      that nearly one-fourth of the sample providers (20 of 86) had at least 20 services
      involving potential duplicate billings to multiple carriers. One of the 20 providers had
      966 potential duplicate services, with questionable allowances totaling about $31,000.
      Another six of the 20 providers had at least 100 services involving potential duplicate
      billings. The 86 sample providers had a total of 2,871 services representing
      approximately $101,000 in improper allowances due to questionable billings to multiple
      carriers.

      For some sample providers, potential duplicate services comprised a high percentage of
      overall services for the 15 codes reviewed. As shown in Table 1, potential duplicate
      services represented one-fifth or more of the total services paid by Medicare to several
      providers. Specifically, there were 5 providers whose potential duplicate services
      represented 20 percent or more of their overall billings. For 8 of the 86 providers, at
      least 10 percent of their total 1998 Medicare billings involved potential duplicate
      services. In contrast, for more than two-thirds of the 86 providers, potential duplicate
      billings represented less than 1 percent of their total Medicare claims.

      Table 1. Percentage of Services Involving Potential Duplicates for 15 Sample Codes
                        Number of services     Total number of          Percentage of services
       Provider        involving duplication   services overall          involving duplication
          A                     334                   828                        40%
          B                     966                  2748                        35%
          C                     114                   332                        34%
          D                      38                   124                        31%
          E                     115                   565                        20%

      A detailed review of all procedure codes showed that duplicate billings to multiple
      carriers were not limited to the 15 codes in our sample. For the 86 providers, an
      additional 1,667 services involved potential duplicate billings, representing nearly
      $86,000 in improper allowances. Fourteen of the top 25 codes that appeared most
      frequently were evaluation and management codes used for physician services. Many of
      these codes can be billed only once per day, and, therefore, any duplication would seem
      questionable. Other procedure codes involved in the duplicate billings were group

  Medicare Payments for the Same Service       7                                     OEI-03-00-00090
    psychotherapy (90853), subsequent nursing facility care per day (99312), end stage renal
    disease related services per day (90925), and spinal canal magnetic resonance imaging
    (72148). The definitions for these codes suggest that a provider would rarely furnish a
    beneficiary with two of these services on the same day, especially in two different carrier
    jurisdictions.




Medicare Payments for the Same Service       8                                     OEI-03-00-00090
                          RECOMMENDATIONS

We believe our findings highlight a significant vulnerability in Medicare’s claims processing
system. The inability to detect duplicate payments by multiple carriers could lead to substantial
future losses for Medicare.

To address the vulnerabilities identified in this report, we recommend that
HCFA:

        Revise Common Working File edits to detect and deny duplicate billings to more
        than one carrier. If this measure is determined not to be cost effective, then
        increased post-payment reviews should be conducted, particularly in areas where
        providers commonly perform services in multiple carrier jurisdictions.

        Promote provider compliance and cooperation with the Office of Inspector
        General’s Compliance Program Guidance for Individual and Small Group Physician
        Practices. Providers in solo or small group physician offices should be encouraged to
        conduct effective voluntary compliance activities to maintain optimum levels of integrity
        in their practices.

        Encourage providers to clarify carrier jurisdiction questions, in addition to other
        billing questions, by using toll-free telephone lines recently established by carriers.

We have forwarded claims information to HCFA so they may take appropriate action regarding
the duplicate payments cited in this report. In addition, we have referred some of the providers
that we identified as having high numbers of duplicate billings to our Office of Investigations.


AGENCY COMMENTS

        The HCFA concurred with our recommendations. The HCFA stated that they will
        reexamine existing criteria regarding duplicate editing in the Common Working File
        system to determine the cost effectiveness of including the carrier number in the match
        criteria. If a revision is determined not to be cost effective, improved duplicate billing
        edits will be considered within the Common Working File redesign initiative. The HCFA
        also plans to prepare a model article for inclusion in all Medicare contractor carrier
        bulletins, reminding providers to conduct effective voluntary compliance activities to
        ensure high levels of integrity in their practices. To encourage providers to clarify carrier
        jurisdiction questions via the carrier toll-free telephone lines, HCFA will instruct carriers
        to alert personnel servicing the toll-free lines to be sensitive to this issue and to provide
        appropriate information to providers.

    Medicare Payments for the Same Service        9                                     OEI-03-00-00090
                                                                              APPENDIX A

                       Procedure Codes Included in Sample


                                             Number of Potential Duplicate          Number of Services
                  Procedure Code                  Services in Universe              Selected for Sample
                       70553                                2                                2
                       72158                                4                                4
   Tier 1
                       90921                                8                                8
                       66984                               12                                8
                       90801                               14                                8
                       99223                               16                                14
                       99204                               20                                14
   Tier 2
                       99254                               20                                14
                       99244                               24                                14
                       11721                               34                                14
                       90862                               42                                30
                      99238*                               42                                24
   Tier 3
                       90816                               82                                30
                      99232*                              110                                28
                       99213                              226                                30
                      TOTAL                               656                               242
*Six services from procedure code 99238 were dropped from the sample, as the provider was under investigation
by the Inspector General’s Office of Investigations. Two services were dropped from procedure code 99232, as
the provider’s Unique Physician Identification Number was not accurately reflected on the National Claims
History file.




    Medicare Payments for the Same Service           10                                         OEI-03-00-00090
                                                                       APPENDIX B

                           Estimate and Confidence Interval

We used the Survey Data Analysis (SUDAAN) software package to compute allowance and
confidence interval estimates presented in the following table. The estimate is weighted based on
the sample design and is reported at the 95 percent confidence level.



                                             Weighted Total Estimate   95% Confidence Interval

 Questionable Medicare Allowances                   $446,015             $367,775 - $524,255
 for 15 Sample Codes




    Medicare Payments for the Same Service         11                                OEI-03-00-00090
                                              APPENDIX C

      Health Care Financing Administration Comments





Medicare Payments for the Same Service   12         OEI-03-00-00090
                                              APPENDIX C




Medicare Payments for the Same Service   13         OEI-03-00-00090
                                              APPENDIX C




Medicare Payments for the Same Service   14         OEI-03-00-00090
